<html>
<title> - A REVIEW OF THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY FISCAL YEAR 2020 BUDGET REQUEST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   A REVIEW OF THE NATIONAL INSTITUTE
                      OF STANDARDS AND TECHNOLOGY
                    FISCAL YEAR 2020 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________

                           Serial No. 116-11

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-877PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>                
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             NEAL DUNN, Florida
PAUL TONKO, New York                 TROY BALDERSON, Ohio
BEN McADAMS, Utah                    ANTHONY GONZALEZ, Ohio
STEVE COHEN, Tennessee               JAIME HERRERA BEUTLER, Washington
BILL FOSTER, Illinois
                         
                         
                         C  O  N  T  E  N  T  S

                             April 9, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Jim Baird, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13
Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    19

                                Witness:

Hon. Dr. Walter G. Copan, Undersecretary of Commerce for Science 
  and Technology and Director of NIST
    Oral Statement...............................................    21
    Written Statement............................................    24

Discussion.......................................................    32

             Appendix I: Answers to Post-Hearing Questions

Hon. Dr. Walter G. Copan, Undersecretary of Commerce for Science 
  and Technology and Director of NIST............................    48

 
                   A REVIEW OF THE NATIONAL INSTITUTE
                      OF STANDARDS AND TECHNOLOGY
                    FISCAL YEAR 2020 BUDGET REQUEST

                              ----------                              


                         TUESDAY, APRIL 9, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Haley 
Stevens [Chairwoman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. The hearing will come to order. Without 
objection, the Chair is authorized to declare recess at any 
time.
    Good morning, and welcome to this hearing to review the 
National Institute of Standards and Technology (NIST) Fiscal 
Year 2020 Budget Request. Dr. Copan, welcome to the Committee 
and to what I hope will be a meaningful dialog about the 
critical national asset that is NIST. It was great to recently 
have you in Michigan's 11th District in Plymouth at our 
Michigan Manufacturing Technology Center, and it is a delight 
to have you here today.
    NIST works with industry, academia, and other government 
agencies to advance science, support technological innovation, 
and increase competitiveness of U.S. companies. NIST's 
recognized excellence in measurement science and standards has 
underpinned U.S. leadership in areas as diverse as additive 
manufacturing, spectrum sharing, smart grid, biotechnology, 
cybersecurity, forensic science, and infrastructure resiliency. 
And that list goes on for quite a while. The agency has also 
played and will continue to play a key role in U.S. 
advancements in artificial intelligence and quantum science. I 
am happy to see increases for these two important areas of 
research in the Fiscal Year 2020 budget proposal for NIST.
    Most Americans--and possibly most Members of Congress--
don't know about NIST or understand the nature or impact of 
their work, but we all benefit from it. NIST's reference 
materials, technical standards, measurement services, and 
technical guidance have been used to validate the performance 
of the smoke alarms in our homes, ensure our law enforcement 
officers have body armor that they can rely on, develop the 
first widely used measurement standard for breast cancer 
diagnosis, and protect us all from bad actors in cyber space. 
These are just a few tangible examples of NIST's work that 
benefit everyday Americans.
    For U.S. manufacturers of all sizes and sectors, NIST's 
measurement services and standards are essential to their 
ability to compete, grow, and create jobs. To say this is a 
disappointing budget request is an understatement. The 
Administration is once again proposing to zero out the 
Manufacturing Extension Partnership program even though in 
2018, MEP (Manufacturing Extension Partnership) resulted in $16 
billion in sales, $1.7 billion in cost savings, $4 billion in 
new client investments, and more than 122,000 jobs created and 
retained at a total cost to the Federal Government of $140 
million. I'll say, that's some ROI (return on investment).
    The Michigan Manufacturing Technology Center, an MEP center 
that's located in Plymouth, has helped create small and medium-
sized manufacturing jobs. They've serviced manufacturing 
clientele and retained nearly 11,000 jobs. MEP also leads the 
Nation in getting ready for cybersecurity services. This is 
something we have seen at the Michigan Manufacturing Technology 
Center. It has been critical to helping manufacturers protect 
their operations on the factory floor and the devices that they 
produce as the industrial Internet of Things (IOT) continues to 
grow exponentially.
    This budget would also result in the layoff of 400 NIST 
staff, including 17 percent of its scientists and engineers, a 
loss that would be hard and likely impossible to recover from. 
NIST scientists have won five Nobel Prizes. They are the best 
and brightest. They could work anywhere, for probably double 
that salary, but they have chosen NIST because of its 
excellence, because of its delivery and their commitment to the 
public good. This request may be one of the more callous 
examples of this Administration's slash-and-burn approach to 
the Federal budget, but it is also one of the most troubling. 
To save $300 million, the Administration is putting on the line 
billions of dollars of economic growth for U.S. companies, not 
to mention our national security, our health, and our 
environment. It is hard for me to overstate the return on 
investment for our Nation from the money that we put into 
NIST's work.
    Finally, for those of us who have visited the NIST campus 
in Gaithersburg, we understand why NIST has more than $300 
million in deferred maintenance and is undertaking major 
renovations of some of their laboratories. We cannot expect 
NIST's scientists, as bright as they are, to do cutting-edge 
research with outdated equipment, leaking pipes, and crumbling 
buildings. I encourage all of my colleagues--in fact, I implore 
my colleagues to visit either of the NIST campuses and see for 
yourself both the incredible work that they do and how 
desperate their facilities situation has become.
    I have had the privilege of visiting NIST in Gaithersburg 
several times throughout my career, and I am encouraged and I 
am inspired, and I am ready to do more.
    I understand hard decisions have to be made in every 
budget, but the proposed $300 million cut to NIST would cause 
irreversible damage to our Nation.
    Dr. Copan, I look forward to your testimony, and I thank 
you for being here. It is my hope that in our conversation 
today we will bring attention to the important work at NIST and 
the likely impacts of the proposed budget cuts. Thank you.
    [The prepared statement of Chairwoman Stevens follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. The Chair now recognizes Mr. Baird for 
an opening statement.
    Mr. Baird. Well, good morning, Chairwoman Stevens. I really 
want to thank you for convening today's hearing on the Fiscal 
Year 2020 Budget Request for the National Institute of 
Standards and Technology. And, Dr. Copan, I appreciate the 
opportunity to visit with you again.
    Article 1 of Section 8 of the U.S. Constitution grants the 
Congress the power to fix the standard of weight and measure. 
And Congress created NIST and its predecessor agencies to 
fulfill that important Federal responsibility. Since 1901, NIST 
has been at the forefront of setting those standards for the 
United States and the world. Almost every Federal agency and 
U.S. industry sector uses the standards and the measurements 
and the certification services that NIST labs provide. I think 
many of our constituents may not appreciate how fundamental 
this work is to our economy and to the national security. From 
genetic sequencing to cybersecurity, NIST is at the forefront 
of advancing innovation.
    As new technologies develop and evolve, NIST's services are 
critical. The President's budget request prioritizes 
investments in three critical technology areas: Quantum 
information science, microelectronics, and artificial 
intelligence. These investments will launch discoveries and 
advances that will significantly affect America's economy in 
the coming decades. I look forward to hearing more about them 
today.
    NIST also works with small and medium manufacturers to help 
them compete in the emerging global marketplace for advanced 
manufacturing. By working with industry and universities like 
my alma mater Purdue, NIST is helping U.S. manufacturers adopt 
new technologies and processes to overcome shared technical 
obstacles. The adoption of new technologies is speeding up and 
improving development, driving efficiencies in production, and 
enabling new business models. I look forward to discussing what 
the next steps should be for the public-private sector 
partnership in manufacturing.
    Finally, NIST plays a critical role in our Nation's 
cybersecurity. NIST provides mandatory guidelines and standards 
to help reduce cyber risk to Federal agencies and critical 
infrastructure. NIST also provides voluntary standards for the 
private sector.
    One of the great challenges of the 21st century is 
cybersecurity. It is imperative that we do everything we can to 
protect our citizens and their privacy. The President's budget 
request prioritizes NIST's cybersecurity work, and I hope to 
learn more about those efforts today.
    We have a constitutional obligation and a responsibility to 
ensure every taxpayer dollar spent is used as effectively and 
efficiently as possible. I appreciate that today's hearing 
gives us the opportunity to fulfill that duty, and I thank Dr. 
Copan for being here today and yield back the balance of my 
time.
    [The prepared statement of Mr. Baird follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you. The Chair now recognizes the 
Chairwoman of the Full Committee, Ms. Johnson, for an opening 
statement.
    Chairwoman Johnson. Thank you very much and good morning 
and welcome to Dr. Copan before this Committee, really for the 
first time, so--and in this hearing today, we will review the 
Administration's Fiscal Year 2020 budget request for the 
National Institute of Standards and Technology.
    In short, it is a myopic and harmful request given NIST's 
critical role in our Nation's economic competitiveness and 
national security. Once again, the Administration is proposing 
deep cuts to NIST's important work across nearly the entire 
portfolio of the agency, from its basic measurement science to 
its industrial partnerships. The consequences of the 35-day 
partial government shutdown that closed NIST's doors this past 
winter may be instructive if this budget proposal is enacted.
    The shutdown of NIST's neutron research facility, according 
to NIST's own briefing materials, had repercussions on 
important industrial research and delayed the Ph.D. work of 
many graduate students who represent our future capacity to 
lead and innovate. Yet this budget proposes to cut--to shut 
down two of the facility's instruments and reduce maintenance 
funding, ensuring that the entire facility will have more 
frequent shutdowns.
    The shutdown resulted in lost opportunities and delays in 
research critical to U.S. competitiveness, including research 
in advanced computing and communications. Yet this budget 
proposes to eliminate programs addressing multiple information 
technologies and data challenges.
    The shutdown resulted in NIST's inability to participate in 
and contribute to important international dialog addressing 
emerging technology issues that will shape the future economy 
such as cybersecurity, Internet of Things, and digital 
connectivity. Yet this budget proposes to lay off 17 percent of 
NIST's scientists and engineers, the very U.S. experts who are 
needed to participate in the international discussions. Those 
are just three examples out of many.
    It should be puzzling to all of us that the Administration 
can be so devoted to ``cut, cut, cut'' that they don't stop to 
think about the consequences of the cuts, even when the 
evidence is laid bare before them. NIST gets much more--much 
less recognition and support than it deserves, among both the 
general public and the political leadership in Washington.
    While this hearing is to examine the troubling consequences 
of the 2020 budget request, it is also an opportunity to bring 
positive attention to NIST's mission and the critical work of 
NIST's dedicated scientists and engineers. I thank you, Dr. 
Copan, for being here this morning, and I look forward to the 
discussion. Thank you, and I yield back.
    [The prepared statement of Chairwoman Johnson follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. The Chair now recognizes the Ranking 
Member of the Full Committee, Mr. Lucas, for an opening 
statement.
    Mr. Lucas. Thank you, Chairwoman Stevens and Ranking Member 
Baird, for holding this hearing today. And thank you, Dr. 
Copan, for being here to testify on the National Institute of 
Standards and Technology's priorities for Fiscal Year 2020.
    Many Americans may not know just how important and far-
reaching this work is and how much it impacts our lives and 
businesses. For example, NIST keeps the official time for the 
United States with cutting-edge atomic clocks. This may seem 
trivial, but this precise and accurate time keeps our GPS 
system working. NIST conducts research and develops standards 
for building codes and new materials. In my home State of 
Oklahoma, NIST has provided critical research and guidance for 
constructing tornado-resistant buildings and infrastructures.
    NIST also plays an important role in cybersecurity. NIST 
sets mandatory guidelines and standards for Federal agencies 
and provides voluntary standards for private industry. The NIST 
Cybersecurity Framework is considered the gold standard for 
cyber protection. Private industry trusts NIST because it has a 
track record of providing high-quality, reliable measurement 
and standards service and information. The world-class 
scientists and facilities at NIST help give United States 
industry a competitive edge that we must maintain.
    The President's budget request prioritizes funding at NIST 
in three new areas that are critical to national security and 
the economy, including the National Quantum Initiative, 
microelectronics, and artificial intelligence, and I look 
forward to hearing more about these new efforts.
    This Committee has a long, bipartisan record of support for 
NIST and its contributions to research and development. Our 
challenge is to set funding priorities that ensure America 
remains a leader in science and technology, while being able to 
balance the government's budget.
    I'll remind my colleagues on both sides of the aisle, the 
President's budget proposal is just the start of the budget 
process. Under the Constitution, the President proposes but 
Congress decides how much will be funded. It is our job to 
ensure taxpayer dollars are properly spent, and this hearing is 
the next step in that process.
    Thank you, and I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. If there are any Members who wish to 
submit additional opening statements, your statements will be 
added to the record at this point.
    At this time, I would like to introduce our witness. Dr. 
Walter G. Copan was confirmed as Undersecretary of Commerce for 
Standards and Technology and NIST Director in October 2017. 
Prior to joining NIST, Dr. Copan founded and served in 
leadership positions for several innovation and technology 
transfer organizations and companies. Dr. Copan was formerly 
Managing Director of Technology Commercialization and 
Partnerships at the Department of Energy's Brookhaven National 
Laboratory and Principal Licensing Executive for Technology 
Transfer at Department of Energy--DOE's--National Renewable 
Energy Laboratory.
    Dr. Copan received his Ph.D. in physical chemistry, 
bachelor-of-science degree in chemistry, and bachelor-of-arts 
degree in music from Case Western Reserve University.
    Dr. Copan, as you should know, you will have 5 minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing. When you've completed your 
spoken testimony, we will begin the questions. Each Member will 
have 5 minutes to question the panel--or you. And with that, 
Dr. Copan, your 5 minutes begins.

             TESTIMONY OF HON. DR. WALTER G. COPAN,

            UNDERSECRETARY OF COMMERCE FOR STANDARDS

              AND TECHNOLOGY, AND DIRECTOR OF NIST

    Dr. Copan. Thank you so much. Chairwoman Stevens, Ranking 
Member Baird, Chair Johnson, and Ranking Member Lucas, thank 
you so much for being here, together with the Committee 
Members. I'm Dr. Walter Copan, 16th Director of the National 
Institute of Standards and Technology, NIST, and I am deeply 
honored to serve our Nation at this world-leading science and 
technology institute and to advance its mission for our 
economy, for innovation, and for U.S. industrial 
competitiveness.
    In this role I serve as the President's principal advisor 
on standards policy, and standards are more important than ever 
before, essential to commerce and to global trade. Thank you 
again for the opportunity to testify today before you on the 
proposed fiscal budget for 2020 for NIST. I'm deeply grateful 
to this Committee for your continued work on behalf of NIST, 
its people, programs, and facilities.
    NIST, as has already been said, plays a unique role as the 
measurement science institute of the United States. Advances in 
precision measurement enable advancing the frontiers of science 
itself, as well as engineering and manufacturing. As one of 
America's great women of science, U.S. Navy Rear Admiral Grace 
Hopper said, ``One accurate measurement is worth a thousand 
expert opinions.'' This is why NIST is such a vital partner to 
U.S. industry, to academia, and to all of government.
    The Fiscal Year 2020 budget request continues this 
Administration's effort to manage fiscal spending and to put 
the Nation on a sustainable path. The budget request for NIST 
aligns with the Administration's key priorities. The 
Administration requests $686.8 million for NIST in Fiscal Year 
2020. This will support the Administration's efforts to lead 
the industries of the future by prioritizing Federal investment 
in key technology areas: Artificial intelligence, quantum 
science and engineering, advanced manufacturing, 
microelectronics, and advanced communications, including 5G, 
while maintaining NIST's core measurement science standards, 
technology, and cybersecurity capabilities.
    NIST is the best in the world in its metrology mission, as 
evidenced by the unanimous agreement of the nations of the 
world to redefine the International System of Units in 
Versailles, France last November. NIST's leadership in this 
monumental achievement for universally accurate measurements, 
now based on the unchanging constants of nature, is rooted in 
our core values of excellence and perseverance, integrity, and 
inclusivity.
    The budget requests $611.7 million for the Scientific and 
Technical Research Services account. This funds the NIST 
research programs, the frontiers of measurement science, which 
enable technology development in our manufacturing progress. 
NIST research and services are central to U.S. innovation, 
economic, and national security. Studies show that for every 
single dollar invested in NIST creates over $50 of direct value 
for the American economy.
    Let me highlight some of our proposed investment increases: 
$8 million increase for artificial intelligence to expand our 
ongoing research, measurements, and standards supporting the 
market adoption of AI technologies; increase of $10 million for 
microelectronics to advance measurement science standards and 
new materials; an increase of $10 million for quantum science 
and engineering and industry consortium collaborations to 
accelerate quantum R&D (research and development) and its 
applications. This aligns with the White House strategy for 
quantum information science and with the National Quantum 
Initiative Act, which was championed by this Committee and 
passed by Congress earlier this year. NIST has a critically 
important role in this initiative.
    NIST is the Department of Commerce's lead agency for 
cybersecurity, and the FY 2020 request maintains strong support 
for cybersecurity and privacy, including the full funding for 
the NIST Cybersecurity Center of Excellence.
    With this budget, NIST will focus on critical priority 
areas of science and technology such as the standards 
accelerating deployment of next-generation communications 
technologies, including 5G, and NIST's work is essential for 
interoperable secure systems, self-driving vehicles, the 
Internet of Things, drones, trusted AI applications.
    The Fiscal Year 2020 budget request for the NIST 
Manufacturing USA program is $15.2 million. The request 
continues to fund the National Institute for Innovation and 
Manufacturing Biopharmaceuticals in Delaware, as well as 
program coordination for Manufacturing USA network.
    In addition, the FY 2020 request includes $59.9 million for 
construction, including maintenance, improvements, and 
renovation of NIST facilities. It also requests $288 million 
for needed renovations to Building 1 in Boulder, Colorado, to 
be funded through a new General Services Administration (GSA) 
capital revolving fund.
    In conclusion, NIST's broad technical portfolio, scientific 
and engineering depth positions the agency to contribute 
effectively to emerging national needs. With NIST's brilliant 
dedicated staff, unique facilities, and trusted, objective, 
nonregulatory role, we are positioned to continue delivering 
high-leverage impact for our economy, quality-of-life, and 
national security. Thank you again for this opportunity.
    [The prepared statement of Dr. Copan follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Stevens. Thank you, Dr. Copan.
    At this point we will begin our first round of questions, 
and the Chair recognizes herself for 5 minutes.
    Dr. Copan, our Committee recently held a hearing on the 
importance of the Manufacturing USA program started in the 
Obama Administration. In addition to housing one of the 
institutes, NIST has played a leading role among the 
Manufacturing USA institutes writ large. And based on the 
feedback that we received during the hearing and over time from 
various stakeholders, the Committee is looking at reauthorizing 
the program and updating it where necessary. What 
recommendations, if any, do you have for continuing to 
strengthening the Manufacturing USA program so that it can meet 
its statutory goals? And I'm also particularly interested in 
your views of the interagency work as it relates to R&D and 
technology transfer throughout the supply chain and workforce 
development. Thank you.
    Dr. Copan. Thank you so much, Chairwoman Stevens. 
Manufacturing USA has been an outstanding program for the 
country, and it represents really one of our leading public-
private partnerships. It brings together industry, academia, 
and government to address the main challenges of the future. We 
have seen that the institutes have delivered great value. There 
is uncertainty currently in terms of future funding for the 
institutes and for maintaining their mission, but the program 
of engagement and also the open competition process that was 
utilized for funding and initiating the National Institute for 
Innovation and Manufacturing of Biopharmaceuticals, which is 
closely engaged with NIST and located in Delaware, has been an 
outstanding example of delivering value to the business 
community, as well as to ensure the retooling of the American 
workforce.
    I encourage this Committee to continue its work in looking 
to the future of the reauthorization of the Manufacturing USA 
program, the RAMI (Revitalize American Manufacturing and 
Innovation Act of 2013) legislation as well, and we look 
forward to engaging with you to ensure that you have the 
information required so that the best decisions are made.
    Chairwoman Stevens. Dr. Copan, I'm also particularly 
interested in NIST's scientific and technical research 
services, in particular your lab programs, advanced 
communications networks and scientific data systems, which the 
current budget proposes a 41.2 percent decrease in funding, 
advanced manufacturing and material measurement, cybersecurity 
and privacy, exploratory measurement sciences, biosciences, 
fundamental measurement, quantum science and measurement and 
dissemination.
    And in part with your labs I was recently at the Canadian 
Embassy, and they were reflecting on their partnership with 
several European countries in artificial intelligence. And I 
got a little elbow nudge saying, well, we're waiting for the 
United States to jump in and to show us the way.
    And the current, you know, budget kind of doesn't do enough 
for what I'd like to see us doing in the advanced 
communications network, with AI and the IOT space, I think this 
is a real role for leadership. But I don't think our labs are 
getting enough attention in NIST. And what I'd love for you to 
reflect on here is how you're working if at all throughout the 
Federal Government with other agencies informing interagency 
collaborations.
    Dr. Copan. Thank you so much for that question, Chairwoman 
Stevens. NIST indeed is a great collaborator across the entire 
Federal network. With artificial intelligence we're actually 
the co-leads of the National Science and Technology Council's 
expert committee on AI, and also have leading engagements 
around the industrial and other applications, such as the 
Internet of Things. The collaborations are very strong. We have 
an opportunity, I believe, for the Nation to step forward and 
to demonstrate leadership because the collaborations are there. 
I believe that NIST has generally taken a bit of a low-key 
approach, and some of the comments made by the Members this 
morning have reinforced that perception.
    But I believe we do have the chance because we are rooted 
in the integrity of science and the ability of using 
measurements to assure the trustworthiness of artificial 
intelligence systems to advance U.S. leadership globally in 
artificial intelligence, AI, and advanced communications, and a 
series of other important fields that you've mentioned. Thank 
you.
    Chairwoman Stevens. And with my remaining time, I would 
just like to commend you for your recent report on the return 
on investment, which I think showcased some of this interagency 
work and the collaboration that we're seeing throughout our 
government as it pertains to scientific advancement and the 
work of NIST, and thank you for your leadership and your 
phenomenal team.
    Now, I'd like to recognize Mr. Baird for 5 minutes.
    Mr. Baird. Thank you, Madam Chair.
    Dr. Copan, since 1901--and we made reference to this 
earlier in her questioning and comments--NIST has been at the 
forefront of setting standards for the United States and the 
world. I understand that over 400 NIST staff regularly 
participate in international standards activities, as technical 
experts and in leadership roles. So I guess my question has two 
parts. Would you mind elaborating on what the value is to have 
our own NIST experts participate in those kind of programs? And 
then how does this affect our broader U.S. effort to lead in 
emerging technologies like the quantum and the AI that you made 
reference to, please?
    Dr. Copan. Thank you so much, Ranking Member Baird. The 
role that NIST plays in setting standards is both a national 
and a global role. NIST coordinates with other agencies across 
the Federal Government to ensure that the Federal Government's 
standards needs are addressed with one voice in a coordinated 
way. NIST also works as a partner to U.S. industry to ensure 
that in national, as well as international negotiations, that 
the U.S. positions are well-coordinated and articulated to 
ensure that U.S. industries' needs are at the forefront of the 
standards-setting process.
    Documentary standards are a negotiation process that affect 
both the key players across industry, as well as the key 
players across international boundaries. We are now seeing for 
the first time a highly organized international competition for 
standards setting. NIST's role in this process, is of course, 
to continue to provide the leadership that's established 
through our technical leadership within each of the science and 
technology committees where we have a role but also to provide 
the underpinning technical excellence that's needed to guide 
the standards negotiators who may be leading committees on 
behalf of the United States' interest.
    And so with this changing dynamic internationally, it's 
important for us to remember that of course this is a free-
market society, and each company has freedom to negotiate for 
its own internal corporate strategic needs and goals. And so it 
winds up being a challenge for us sometimes to ensure that 
those industry players actually do speak together with one 
voice, that the outcomes that are most important for U.S. 
leadership in these emerging fields are ultimately achieved, 
and within the international standards process, we have seen 
other nations now taking a much more aggressive position for 
committee leadership to try to dominate committees that are in 
their nation's best interest. And so it's important for U.S. 
industry to remain highly engaged. And recommendations have 
come from the ROI Initiative that Chairman Stevens had 
referenced, talks about encouraging U.S. industry once again to 
fully engage in this process. Thank you.
    Mr. Baird. One additional question, as we all know, the 
world is becoming more and more interconnected, as you made 
reference to, and the relative insecurity of many devices 
present enormous challenges. And that's why I've cosponsored 
H.R. 1668, the Internet of Cybersecurity and Improvement Act of 
2019. So if you could, how does this budget proposal support 
NIST's examination of the IOT capabilities and the growing 
measurement and security challenges created by the convergence 
of digital technologies with the physical world?
    Dr. Copan. Thank you so much, Ranking Member Baird. 
Cybersecurity is obviously a top priority for NIST. It's a top 
priority for the Nation, and thank you so much for your 
leadership in that effort. The budget proposal for NIST for 
2020 maintains our core capabilities for cybersecurity, as well 
as our commitments to advance the privacy framework and the 
privacy agenda for this Nation in an open, transparent, and 
collaborative process with stakeholders from the public and the 
private sectors.
    The National Cybersecurity Center of Excellence is one of 
the leading centers globally for the Internet of Things and for 
its assessment for the evaluation of vulnerabilities and for 
the determination of interoperability and standards challenges 
and opportunities, together with the players across multiple 
U.S. industry sectors. Thank you.
    Mr. Baird. Thank you very much, and I yield back my time.
    Chairwoman Stevens. Thank you. And before we move to our 
next round of questioning, I'd just like to welcome the 
students that I think made their way into the Committee 
hearing. Do you mind identifying yourself quickly and where you 
all are from?
    Voice. We're from Paul VI Catholic High School in Fairfax.
    Chairwoman Stevens. Wonderful. Well, welcome to the 
committee of the future. This is the Science, Space, and 
Technology Committee. It is the Subcommittee for Research and 
Technology. You are dipping into the future with us, and you 
are seizing hold of a vision of that future, so thank you, and 
welcome to the hearing.
    I now recognize our Chairwoman, Ms. Johnson, for 5 minutes 
of questioning.
    Chairwoman Johnson. Thank you very much. And I will add my 
welcome for the students as well.
    Dr. Copan, what analyses did the Administration use in 
deciding what programs to prioritize or eliminate?
    Dr. Copan. Thank you very much for that question, 
Chairwoman Johnson. The analysis that was utilized to make 
these decisions I don't have the exact insight. I know that 
there have been very clear statements made by the 
Administration, and NIST certainly was at the table in defining 
the key industries of the future and the requirements to invest 
for ongoing U.S. competitiveness. And so it's been the NIST 
response to the budget proposal from the Administration to do 
the very best that we could in laying out our priorities to 
meet also our legislative mandates in stepping up to ensuring 
that the core initiatives for the Nation around artificial 
intelligence, around the future of the U.S. microelectronics 
industry, for the future of quantum science, which represents 
both a great opportunity as well as a threat to our secure 
communications and cryptography. And so the NIST response quite 
clearly had to reflect those national priorities in our budget 
response.
    Chairwoman Johnson. What is the state of the facilities of 
NIST's campuses, and what is the impact of NIST's ability to 
carry out its mission with this proposed direction of the 
Administration?
    Dr. Copan. This Administration has very clearly made a 
strong point about the importance of U.S. infrastructure and 
investment in the infrastructure requirements of the future. 
And I believe that the U.S. science and technology 
infrastructure is an essential element of U.S. leadership. The 
ability to carry out state-of-the-art research in state-of-the-
art facilities or at least facilities that are trustworthy in 
their performance is an essential element that we're looking 
forward to the future of NIST.
    The budget request for NIST is a significant reduction from 
our previous levels, but we will certainly be as responsive as 
we can to make the most of the investments in the facilities, 
and I'm encouraged by the opportunity to finance the $288 
million that's needed for our Building 1 reconstruction in 
Boulder, Colorado, with a creative financing approach through 
the GSA revolving fund that's been proposed.
    Chairwoman Johnson. OK. What would be the impact of the 
proposed budget on U.S. leadership in international standards 
development, including for emerging technologies?
    Dr. Copan. Thank you very much for that question. NIST is 
committed to do the very best it can with the budget that we 
are ultimately allocated through this process, and we're so 
grateful for the work of this Committee to ask the questions 
about these issues. We have had certainly publicized challenges 
that have been created through failures of NIST's 
infrastructure, our water systems, our electrical systems, 
flooding in buildings, and so on. We have a very resilient 
team, and so they have worked in a very cost-effective way 
within the funding that's been made available.
    The NIST maintenance budget itself, just according to 
government standards, would be on the order of $140-150 million 
per year just to maintain the systems, and that does not even 
refer to the rebuilding process that we've just described the 
needs for. And so I look forward to the work of this Committee.
    As Chairwoman Stevens had encouraged the Committee Members, 
we invite you to come out to make a visit to Gaithersburg or to 
Boulder, see the leading-edge science that's done in our 
facilities and how we can make the most of the facilities in 
sometimes challenging conditions to still carry out leading-
edge science for this Nation for our global leadership.
    Chairwoman Johnson. Well, thank you. Now, has NIST done any 
recent workforce planning, and do you face some graying of your 
technical workforce? And how are you planning to deal with 
that?
    Dr. Copan. Thank you. And I'm glad that we have the next 
generation of NIST scientists in this room with us today. This 
is wonderful because we look to the next generation. NIST's 
workforce planning focuses around the industries, the trends of 
the future. Measurement science is at the core of our ability 
to lead. And, as I indicated in my opening remarks, to measure 
ultimately enables the United States to lead.
    And so the workforce requirements that we've identified for 
both NIST and for the Nation focus on the requirements of our 
country for communications technologies, for cybersecurity, for 
advanced materials, and for the people involved in the field of 
artificial intelligence. NIST has issued a report on the future 
of cybersecurity education in this country, and that's tied 
with the curriculum and the expectations of the NIST 
cybersecurity education program.
    And the other elements that we see that are so important 
are the future of our advanced telecommunications, as well as 
the chip designs of the future. We've issued a workforce on 
those electronic systems as well.
    Chairwoman Johnson. Thank you. I yield back my time.
    Chairwoman Stevens. I now recognize Mr. Marshall for 5 
minutes.
    Mr. Marshall. Yes, thank you, Chairwoman. I think first I 
just want to compliment all my fellow minority Members for 
making it to these hearings, and it looks like that once again 
the dais kind of tilted over here toward our right, so I 
appreciate the participation.
    My first question, Dr. Copan, would be to do with 
cybersecurity framework, which has been a success. In September 
2018, NIST announced the launch of its privacy framework 
effort. It's intended to complement the cybersecurity framework 
to help organizations manage privacy risk. Maybe got two or 
three questions. You can bundle them together here. How is the 
development of the privacy framework progressing? What's NIST 
heard from government, industry, academia regarding the 
usefulness or necessity of guidance like the privacy framework? 
Is it something government and industry have asked for or 
suggestions that might be helpful in managing their privacy 
risk?
    Dr. Copan. Thank you so much, Congressman. This is a key 
area of NIST's focus currently. NIST launched its work in the 
development of the privacy framework actually at the 
encouragement of the private sector, who was being challenged 
with a patchwork of regulations that they were seeing to manage 
across the United States, as well as globally. And the success 
that we've had in the cybersecurity framework was seen as an 
excellent model. It's one where the private sector, government, 
public-sector entities could collaborate and look to the 
aspirations of the future to have a framework that truly 
represents best practices and not a regulatory approach, a 
checkbox kind of mindset. Industry has appreciated so much the 
approach of having a framework that looks always to managing 
the risk environment, the threat environment.
    And so after the launch of the privacy framework activities 
in which I've been personally involved and delighted to 
support, NIST has had several public engagement opportunities 
to bring feedback together. On February 27, we issued a 
framework outline and initial summary of feedback received from 
public--private sector stakeholders. We are planning our 
follow-up workshop in Atlanta, Georgia, May 13 and 14. We had 
originally planned that during February, but a certain thing 
called a government funding lapse kind of got in the way.
    But we are pleased that we're back on track. We're looking 
to make a lot of progress this year, and we're anticipating a 
working draft of this framework for public feedback within the 
next several months.
    Mr. Marshall. Great. Let's talk about microelectronics for 
a second. As a physician, I've always been curious about the 
microelectronics, and it's been actually like 20 years ago, 
that they introduced these little cameras that they could drop 
into someone's mouth and it would go through the stomach and 
the small intestines and of course through the colon as well. 
Anybody who's had the pleasure of an EGD 
(esophagogastroduodenoscopy) or a colonoscopy, this was great 
promise, but yet it's still not really taken hold. It's still 
not the gold standard. We're still doing of course 
colonoscopies and EGDs. So you've got $10 million for the 
microelectronics. Maybe just share a little bit more about it 
and its importance to United States' security and economic 
competitiveness and access to trusted and assured 
microelectronics.
    Dr. Copan. Thank you so much for that question in follow 
up, Congressman. Microelectronics have been a core of U.S. 
industrial leadership, and I'm pleased to indicate that NIST 
has been involved from the very beginning of the NIST 
electronic industry initiatives to enable industry to measure, 
to create the kind of standards that are necessary to have the 
advances in medicine, in communications, in computational 
technologies, and so on. Our budget proposal would really 
increase our ongoing efforts in the development of 
measurements.
    New materials are absolutely critical to achieve the kind 
of device miniaturization and high degrees of performance and 
also to be able to have the kind of connectivity that's 
necessary and the ability to do remote medicine, for example, 
and to have patients in other parts of the Nation who can take 
advantage of 5G communications technologies that connect with 
microelectronics systems and enable intelligent personalized 
medical procedures to be carried out.
    It's so important to have a rigorous standardization 
process as well, and NIST works closely with industry to ensure 
that in all aspects from the manufacturing process to the 
standards of commerce and how these systems will be used, and 
now we're working on standardization for all radiological 
devices and for magnetic resonance imaging because there's been 
so much repeated testing that's been done because of that lack 
of standardization. We look forward to that work continuing 
under this increased funding. Thank you.
    Mr. Marshall. Thank you so much. I yield back.
    Chairwoman Stevens. Thank you. The Chair now recognizes Mr. 
Foster for 5 minutes.
    Mr. Foster. Thank you, Madam Chair, and thank you for 
coming here to try to clear some things up for us. I'd like to 
talk briefly about the budget cuts to some centers. You're 
planning to end your $15 million Centers for Excellence 
program, which currently sponsors three centers dedicated to 
advanced materials, as you just mentioned the importance of, 
also community resilience and forensic science.
    And so I'm very concerned about this, you know, 
particularly the Advanced Materials Center for Excellence, 
which is located near my district in Illinois. The center was 
awarded in December 2013 to the Center for Hierarchical 
Materials Design, which is a partnership, which I'm going to 
also return to, between the DOE national labs, Argonne and 
Northwestern University and the University of Chicago, and 
others. And not only does this center employ people living near 
my district, but the research has the potential to 
revolutionize materials science. The current research spans 
metals, polymers, biological materials with applications in 
areas such as electronics, energy, aerospace, health care, and 
so on. Do you view these as unimportant technologies? What is 
the motivation for shutting these down?
    Dr. Copan. Thank you so much, Congressman, for that 
question. Indeed, the centers that you're talking about, 
including CHiMaD (Center for Hierarchical Materials Design) in 
Illinois, has been an absolutely outstanding example of public-
private partnerships. It's delivered tremendous value through 
what's called a Materials Genome Initiative that's enabled the 
effective creation of the application of artificial 
intelligence machine learning to the much more rapid design of 
materials. We are very pleased with the work of these programs. 
We do see that they will have ongoing benefit, including in the 
microelectronics area that I just described.
    But under these budget proposals, difficult decisions need 
to be made. And in order to be able to carry out the priority 
needs of the industries of the future, these tough choices 
unfortunately have resulted in these proposed changes. And so 
we look forward to working with this Committee on the budget 
implications, anything that we can do to provide insights on 
the work that's planned and the ramifications, and we look 
forward to the ongoing efforts of the Committee on behalf of 
the budget process to be brought to completion.
    Mr. Foster. Yes. Now, when you see the budget jerked around 
this way, a program ramped up and then abruptly cutoff, do you 
have a feeling from what sort of violence that does to the 
attitudes of the incoming workforce to know that they may be 
starting down a road that will be slammed shut without warning 
by a future Administration such as we're facing?
    Dr. Copan. Thank you so much for that question. It is 
indeed challenging. NIST has a wonderful global reputation, and 
we look forward to continuing to be able to provide the kind of 
leadership opportunities for science and technology for the 
brightest and best of American talent in the future. It does 
create challenges certainly, and we work hard at NIST to keep 
people focused on their mission and regardless of budget ups 
and downs--and some of our people have been through these 
journeys during previous cycles, as you've intimated. And they 
look forward to the hard work of this Committee to make sure 
that the right choices are ultimately made and that the long-
term strategic goals of this Nation are ultimately addressed 
regardless of Administration, regardless of political cycle, 
that we can ensure that American leadership is secured.
    Mr. Foster. Yes, but sometimes obviously the wrong choices 
can be made at the top-line level in the budgets from which you 
cannot--no amount of brilliance, you know, down deeper in the 
budget can recover from.
    Dr. Copan. Thanks for that question. We count on the 
brilliance of Congress to work on budget issues. We recognize, 
as I believe our Ranking Member had indicated early on, that 
the budget proposal is the beginning of the journey, and we 
look forward to the fiscal accountability, as well as to the 
needs of the Nation ultimately to be exercised as a result of 
the process.
    Mr. Foster. OK. I'm pretty sure I can read between the 
lines of what you're saying, and we're on your side in this. 
And I just wish you luck in all your negotiations upwards in 
the org chart. Thanks much, and I yield back.
    Dr. Copan. Thank you.
    Chairwoman Stevens. The Chair now recognizes Mr. Gonzalez 
for 5 minutes.
    Mr. Gonzalez. Thank you, Madam Chair. Thank you, Dr. Copan. 
Great to see a fellow Clevelander. Welcome. Great to see you, 
high school students. You're probably more brilliant than us, 
despite what Dr. Copan just said, so you'll see that as this 
unfolds.
    So I think there's a lot to be excited about with the 
current state of the economy, right? GDP is around 3 percent, 
unemployment all-time low, wages finally starting to rise. We 
can go through a whole litany of data that would suggest that 
in the present moment the economy is doing better than it has 
in a very, very long time.
    This Committee is largely about balancing present with 
future priorities, one of the reasons I love this Committee so 
much, and when I look at the state of the global economy and 
who our main competitors are and what we are going to be 
competing on, it's China and cutting-edge technologies. That is 
the race that we have to win. They know they have to win that. 
They're investing like crazy. They're focused. They're very 
diligent about it and cheating in a lot of ways, but, if 
nothing else, they're focused.
    My concern when I look at the budget is I'm worried that 
maybe we're pulling back when I think we should be pressing 
forward on some of these cutting-edge technologies. So my first 
question would just be a basic one. With respect to the budget 
for NIST, were you consulted, was NIST consulted, and how much 
on this particular budget?
    Dr. Copan. Thank you very much, Congressman Gonzalez, and 
thank you for representing Ohio and northeastern Ohio in 
particular. The budget process is one that I don't have full 
transparency to in terms of the way in which the initial work 
has been carried out. I know that as the proposal came to NIST, 
we have done our very best to be able to respond to work with 
the Department of Commerce. Secretary Ross certainly has been 
involved in those negotiations and been looking after the 
broader interests of the Department of Commerce. And of course 
we're in the midst of preparing for the decennial census, which 
is another challenge for budget realities.
    Mr. Gonzalez. Thank you. And then specifically on the 
manufacturing side, this proposal would eliminate the MEP 
program I believe. And, as you know, in northeast Ohio we take 
pride in our manufacturing base. We're excited about it, and we 
want to make sure that we're always at the cutting edge. So if 
this were to go through or if not, how would you make sure that 
we aren't losing our edge in the manufacturing sector?
    Dr. Copan. Thanks so much for that question. And indeed, as 
the United States is looking at this particular budget and 
fiscal responsibility and the U.S. deficit, we also are facing 
unprecedented global challenge. And you mentioned China in 
particular. I indicated earlier the highly organized way in 
which China is working to achieve strategic advantage for its 
companies and its national interests.
    U.S. manufacturing is the heartbeat of this Nation, and as 
people make things, they learn things, and we've seen that in 
Manufacturing USA, we've seen that in our Manufacturing 
Extension Partnerships. The Manufacturing Extension 
Partnerships has been a long-term success for this Nation. 
Fritz Hollings just passed away, and it was a great gift that 
he gave to the U.S. in his legacy that he leaves with the MEP.
    We would anticipate that under this budget scenario that 
the MEP centers, if they do indeed lose Federal funding, would 
have to work closely with NIST to try to transition to an 
entirely different funding model. They would need to find 
funding from the private sector to find new ways of increasing 
their funding base from their client companies. States, of 
course, and economic development organizations, the non-profit 
sector has an important role to play there, but we realize that 
if the budget would go through in this particular case, that 
there would be an important transition process to ensure that 
the long-term impacts of the MEP, such an important part of the 
U.S. manufacturing sector, could continue to deliver value for 
the Nation.
    Mr. Gonzalez. Great. And then with my final question, with 
respect to standards and codifying standards internationally, 
what is NIST doing to ensure that the 5G standards are 
developed in a collaborative manner? And how is it working with 
international, interagency partners to ensure that we don't get 
locked into a Chinese 5G standard?
    Dr. Copan. Yes, thanks so much for that question. 5G is 
absolutely essential. NIST is highly involved in that, and in 
the budget scenario, even though the overall budget bucket that 
includes advanced communications technologies has been reduced 
in the budget response, our work in continuing 5G to maintain 
U.S. leadership, to work with U.S. industry players, and to 
ensure that U.S. industry interests are represented in the 
global standards fora is an absolute top priority for us, and 
we would look forward to continuing that close engagement for 
American leadership.
    Mr. Gonzalez. Great. Thank you, Dr. Copan, and I yield 
back.
    Chairwoman Stevens. Thank you so much. It's certainly a 
great day when we can dive a little bit deep. And for me it's 
fair to say I came here for the Manufacturing Extension 
Partnership centers. We're so admiring of what MEP has been 
able to do across the country, and we also recognize that words 
matter, that budgets matter. And while I don't expect MEP to be 
eradicated, I will repeat what I said in my opening remarks, 
which is $16 billion in sales, $1.7 billion in cost savings, $4 
billion in new client investments, and more than 122,000 jobs 
created or retained at a total cost of $140 million. This is a 
best practice in our country. And so I will bellow here in this 
Committee and anywhere that folks will listen about how 
important the Manufacturing Extension Partnership centers are 
to regional economies like mine in southeastern Michigan and 
many of my colleagues.
    I also appreciate the dialog that I have with my Ranking 
Member, Mr. Baird, who is what I consider a budget expert but 
also a believer and a fan and doer for the sciences and 
workforce development and advanced manufacturing growth. So 
rest assured we have a great partnership here and a commitment 
to progress.
    And now I would like to recognize Ms. Herrera Beutler for 5 
minutes.
    Ms. Herrera Beutler. Thank you. Just a couple quick 
clarifications. This is the first time on this Subcommittee. 
I'm new to the Committee, but I'm not new to Congress. I 
actually serve on the Appropriations Committee. And just for 
clarity's sake, there has been a recommendation from the 
Administration, and that recommendation from the Administration 
is bound under current law, meaning that the law that Congress 
passed is what they're writing their budget to.
    The majority here in the House, which would be the 
Democratic party, has the authority to put forward a new budget 
with higher levels with which you can then draw your budget. Am 
I correct in that?
    Dr. Copan. I believe that how you've described it is 
accurate, yes.
    Ms. Herrera Beutler. Yes. So as someone who has yet--you 
know, I serve on Appropriations, and we are waiting for a 
budget direction from the majority party as to how to allocate 
our Subcommittee assignments, including the Department of 
Commerce and including NIST under that umbrella. We stand ready 
to make sure that we are appropriately allocating funding, 
manufacturing extended partnerships, and all the like. I mean, 
I think manufacturing is one of the things that's helping drive 
our economy. We want to see that continue.
    And you know, I've heard a lot of comments about the 
budget, but I just wanted to remind folks that the majority 
here in the House has the authority to say thank you but no 
thank you to the recommendation from this Administration or 
any. You know, having served under the last Administration, 
they put forward recommendations based on current law that we 
took some of and we didn't take some of.
    So before everybody gets all panicked about this, I would 
just remind the majority they have the authority to increase 
your budget, and I think many of this on this side of the aisle 
support making sure that you can continue to do this work 
because we're seeing the benefit of it in our districts, in our 
regions.
    And what I really love is the commitment to the public-
private partnership because I think that's one of the areas 
where we get the science out of the academia, we get it out of 
the theoretical and into practice. And there's so many in the 
private sector within the innovating sector I would say who are 
just raring to go. And you play such an important role, so 
thank you.
    Dr. Copan. Thank you.
    Ms. Herrera Beutler. I just wanted to get that 
clarification on record.
    And in that vein, you know, my district in southwest 
Washington I often refer to as a silicone forest. We used to 
have a lot more development in our timber and timber 
manufacturing, which I'd like to see continue, but now we have 
a growing silicone forest essentially where we're manufacturing 
chips and wafers and technology. And I feel like, you know, you 
all responding and meeting some of those needs. I wanted to ask 
about the Return on Investment Initiative for Unleashing 
American Innovation. That's a long one--which is focused on 
coordinating and improving technology transfer programs across 
Federal agencies. So what role--this is--again, I'm learning 
here--does NIST play in promoting the transfer of technology 
from federally funded R&D to the private sector?
    Dr. Copan. Thank you so much for that question, for the 
comments that you've laid out in terms of clarifying the budget 
process and the expectations. And I'm delighted that the work 
that NIST has been doing across the country and also in 
Washington has delivered such benefit. It's also an important 
part of retooling industry with new technologies and keeping 
the United States' manufacturers at the leading edge.
    NIST plays a very important role in the U.S. innovation 
system because we do have oversight for some of the important 
legislation and policy about Federal technology transfers. For 
example, the Bayh-Dole Act of 1980 truly enabled our Nation's 
universities and many of our Federal labs to partner with 
industry to hold intellectual property and to ensure that it 
resulted in value for the economy through licensing, through 
new company startups. And so that legislation had an 
underpinning well before the digital economy.
    There are many things that are changing about public-
private partnerships. We need much faster, much more agile and 
flexible tools to enable industry, academia, and government 
entities to engage.
    You are aware of my background in this field of innovation 
and tech transfer, and I'm highly passionate to see the value 
ROI created from our Nation's investment in basic science. And 
no matter how much we invest that we'll get more value from 
that by streamlining regulation, by removing known barriers or 
those uncertainties for the private-sector investment, and 
ultimately to enable so much more value to come for our economy 
and for our people from this investment.
    We've seen China and other nations have dramatically higher 
trajectories later of their intellectual property filings, as 
well as their work in standardization. These are areas that we 
are very focused upon in the United States, and so we need the 
Federal labs actually to have more access to intellectual 
property protections not only in this country but around the 
world to enable U.S. industry to compete globally.
    Chairwoman Stevens. Thank you so much. How lucky we are to 
have an appropriator on our Committee who seems to intend to 
reject the cuts to MEP. The majority certainly is eager to make 
the intended investments to advance our scientific and research 
agenda.
    And a district that, you know, is south of Olympia and 
Aberdeen and just north of Portland might not seem to have too 
much in common with metro Detroit, but they're both export 
destinations, and they're both regions that are contingent on a 
robust supply chain and technology sectors. And when I look to 
our audience, the reason why we have these debates and 
discussions and why sometimes things in the budget become 
upsetting like a cut to the Special Olympics or a cut to an 
educational research program is because this is why we're doing 
this is, we're doing this for the students. We're doing this 
for the next generation. We're doing this to leave this place 
better than we found it. So thank you.
    I now yield to or recognize Mr. Balderson for 5 minutes.
    Mr. Balderson. Thank you, Madam Chair. And Dr. Copan, thank 
you for being here this morning and welcome, students, also.
    I had the chance to ask about the Manufacturing Extension 
Partnership, which has had some discussion here this morning. 
And we've also had discussions in previous Committee hearings. 
This program has helped businesses in my district, which is 
also located in central Ohio----
    Dr. Copan. Yes.
    Mr. Balderson [continuing]. Innovate and adapt to changing 
marketplace, as well as improve their products overall. Can you 
speak to how NIST is leading the way in leveraging the public-
private partnership as a way of sparking innovation and 
improving the American industrial competitiveness?
    Dr. Copan. Thank you so much, Congressman Balderson. Thank 
you for your service to the Nation and to Ohio. The public-
private partnership model that we're talking about in this 
Committee, the Manufacturing Extension Partnerships is a great 
example of leveraging Federal investment with other funding 
sources to create much higher value for the economy to address 
issues of workforce. I described earlier some of the work that 
we do across NIST to look to the workforce needs and to help 
prepare the workforce requirements so that, as industries 
change and as manufacturing sectors evolve, that we have the 
right skills with the right people at the right time for this 
Nation.
    We're looking forward to a very exciting time of artificial 
intelligence, and many of our MEP centers, as well as 
Manufacturing USA, are pioneers in the use of robotics 
technologies, additive manufacturing, digital manufacturing 
concepts that are so important to the supply chain of the 
Department of Defense.
    It's interesting actually, as we look at Manufacturing USA, 
which is a sister public-private partnership that has an 
intertwined mission with Manufacturing Extension Partnerships, 
that was actually set up after--in a similar vein in Germany at 
the Fraunhofer Institutes under the Marshall Plan. And the 
United States has recreated its new version of the public-
private partnership as Manufacturing USA in this Nation.
    And to follow up on the point that was raised earlier about 
follow-on legislation and the importance of that program to 
U.S. manufacturers across the Nation and even the access to 
facilities such as America Makes in Youngstown and its partner 
facilities in other parts of the Nation, it's so important to 
revitalize our manufacturing communities across the Nation, 
provide them the opportunities to rebuild workforce, as well as 
to address new and entrepreneurial opportunities that are 
created by industry change.
    Mr. Balderson. Well, thank you very much for that answer. 
And I look forward to working with you on another Committee 
that I serve on, Small Business. Representative Crow from 
Colorado is the Chairman, I'm the Ranking Member for the 
Innovation and Workforce Development. And this is something 
that's a passion of mine and making sure that those jobs are 
out there and we educate and train these young adults that are 
sitting behind you right now.
    My last and final question, as we seek out a higher return 
on investment for basic research at the Federal level, can you 
share with us how you and your team ensure that NIST 
partnerships and research lead industry to develop market-ready 
products that will produce this return on taxpayers' 
investment?
    Dr. Copan. Thank you again, Congressman Balderson. The ROI 
initiative is in part looking at some of the structural and 
workforce--some of the strategic elements that are so important 
for the United States to continue to get value from its Federal 
investment in science and technology, at our national 
laboratories, at our universities, and in collaborations with 
industry. So we look forward to this process going forward.
    The Green Paper on the Return on Investment Initiative is 
expected to be released within the next several weeks, and we 
look forward to continued robust engagement with the community 
of practice.
    Many of the technologies that come out of the Federal labs 
and universities are relatively early-stage, and so as we look 
to translational research to get those ready for the commercial 
marketplace, that requires getting industry working side-by-
side with our labs and with our universities. And so having the 
right kind of incentives, having the right kind of structures 
that make it feasible for entrepreneurs to spin out a company 
that's based on an emerging technology from our universities 
and our Federal labs is absolutely an essential part of this 
initiative.
    There are many elements. I look forward to working with 
you. We work closely across the Federal sector and with the 
Small Business Administration as well. The SBIR (Small Business 
Innovation Research) program has been a proven strong value for 
the Nation's entrepreneurs and represents yet another example 
of public-private partnership where strong recommendations have 
come out of the ROI Initiative.
    Mr. Balderson. Thank you.
    Chairwoman Stevens. Thank you. And now three Midwesterners 
remain: Ohio, Indiana, and Michigan. We got sworn in, the 116th 
Congress, in an interesting time in the middle of a government 
shutdown, a partial government shutdown, which we recognize 
affected and impacted NIST greatly, furloughed workforce, 
people working without pay, and I would like to take a minute 
in this hearing to recommit to your workforce, how much they 
mean to us, how much their talents mean to our economy, and our 
intentions to advance scientific research innovations and grow 
regional economies.
    Sometimes being in Congress is like being on a boat. There 
are two sides of the aisle. It rocks back and forth through 
great debate and discourse, but yet we're still all on the same 
boat looking up, looking for that North Star, looking for 
progress, looking to create the most good.
    And so before I bring this Committee hearing to a close, I 
would like to thank our sole witness, Dr. Copan, for testifying 
before us here today and shouldering all of the questions. You 
did a fabulous job.
    The record will remain open for 2 weeks for additional 
statements from Members or for any other additional questions 
the Committee may ask of our witness. The witness is excused, 
and the hearing is now adjourned.
    Dr. Copan. Thank you so much. Thank you all.
    [Whereupon, at 11:13 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
